NO.
IN THE

uprenn Court of tbr niteb tote;
IYM TECHNOLOGIES LLC,

Petitioner,
v.
RPX CORPORATION AND ADVANCED MICRO DEVICES, INC.,

Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit
CERTIFICATE OF COMPLIANCE
Pursuant to this Court's Rule 33.1(h), I hereby certify that the Petition for a Writ
of Certiorari contains 4,315 words, excluding parts of the document that are exempted by
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 30, 2020.

ANDREA PACELLI

Counsel of Record

King & Wood Mallesons LLP
500 Fifth Avenue, 50th Floor
New York, New York 10110
212-319-4755
andrea.pacelli@us.kwm.com

Counsel for Petitioner

